HHS/OIG, Audit - "Review of Allegheny County's Medicaid Administrative
Case Management Costs Claimed by Pennsylvania Between January 2002 and June
2003," (A-03-05-00201)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Allegheny County's
Medicaid Administrative Case Management Costs Claimed by Pennsylvania Between
January 2002 and June 2003," (A-03-05-00201)
April 26, 2007
Complete Text of Report is available in PDF format (2.01 mb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Centers for Medicare & Medicaid Services (CMS) requested that we determine whether administrative case management costs claimed on behalf of Allegheny County were comparable to those costs claimed on behalf of Philadelphia County. Pennsylvania stated that administrative case management is one of three components of case management and needs to be viewed in total with intensive case management and resource coordination. For our review period, these three case management costs in Allegheny County totaled $399 per client, which was comparable to Philadelphia County totals of $461 per client.
We also found, contrary to Federal regulations (45 CFR § 95.509), that Pennsylvania did not properly amend its cost allocation plan prior to submitting its initial claim for Federal reimbursement of administrative case management costs. We recommended that CMS: (1) direct Pennsylvania to amend its cost allocation plan in order to claim administrative case management costs and (2) reconsider its acceptance of Pennsylvania’s claim for Federal matching funds for administrative case management services provided from January 2002 until a cost allocation plan amendment is submitted.
Pennsylvania concurred that Allegheny County’s costs per client for the three levels of case management compared to Philadelphia. Pennsylvania did not concur that it needed to amend its cost allocation plan and did not agree that CMS should reconsider its acceptance of claims for administrative case management costs.